   United States Department of Agriculture
   Office of Inspector General




Procurement Oversight Audit of Red River
Valley Agricultural Research Center Contract




                                             Audit Report 02703-0002-10
                                             June 2012
                          United States Department of Agriculture
                                  Office of Inspector General
                                   Washington, D.C. 20250




DATE:          June 18, 2012

AUDIT
NUMBER:        02703-0002-10

TO:            Edward B. Knipling
               Administrator
               Agricultural Research Service

ATTN:          Lisa A. Baldus
               Associate Deputy Administrator
               Administrative and Financial Management

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Procurement Oversight Audit of Red River Valley Agricultural Research
               Center Contract


This report presents the results of the Procurement Oversight Audit of the Red River Valley
Agricultural Research Center Contract, awarded by the Agricultural Research Service (ARS) to
Pro-Mark Services, Inc. Your written response to the official draft report, dated April 23, 2012,
is included in its entirety as an exhibit to this report.

Regis & Associates, PC, was engaged to conduct the audit to ensure that the transparency and
accountability requirements of the Recovery Act are met and to ensure that ARS’ Recovery Act
procurement activities are performed in accordance with Federal Acquisition Regulations, Office
of Management and Budget guidance, and Recovery Act requirements. During our oversight of
the contract, we reviewed Regis & Associates, PC’s report and related documentation. Our
review, as differentiated from an audit, in accordance with Government Auditing Standards
(issued by the Comptroller General of the United States), disclosed no instances where
Regis & Associates, PC’s audit did not comply, in all material respects, with Government
Auditing Standards.

Based on your response, we were able to reach management decision on all recommendations in
the report. Finding 3 in this report did not contain recommendations because the issue was
previously reported. Therefore, no further response is necessary.

In accordance with Departmental Regulation 1720-1, final action must be taken within 1 year of
each management decision to prevent being listed in the Department’s annual Performance and
Edward B. Knipling                                                                                 2


Accountability Report. Please follow your agency’s internal procedures in forwarding
documentation for final actions to the Office of the Chief Financial Officer, Director, Planning
and Accountability Division.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
DATE:                     May 8, 2012

REPLY TO
ATTN OF:                  02703-0002-10

TO:                       Jane A. Bannon
                          Audit Director
                          IT Audit Operations Division
                          Department of Agriculture, Office of Inspector General

FROM:                     Regis & Associates, PC          /s/

SUBJECT:         Procurement Oversight Audit of Red River Valley Agricultural Research Center
                 Contract

The American Recovery and Reinvestment Act of 2009 (the Recovery Act), provided the
Department of Agriculture’s (USDA) Agricultural Research Service (ARS) with $176 million to
reduce the backlog of facilities critical deferred maintenance projects. On September 30, 2009,
ARS’ Colorado Area Office located in Fort Collins, Colorado awarded a sole-source, negotiated,
firm fixed-price construction contract under the 8(a) Business Development Program 1 for
$1,226,333 to Pro-Mark Services, Inc. This contract was to replace laboratory facilities heating,
ventilating, and air conditioning systems and components at the Red River Valley Agricultural
Research Center, located in Fargo, North Dakota. In addition to the initial contract award,
subsequent contract modifications were made for work that included the relocation of switches,
thermostats, and a fire alarm panel and the rework of wiring that totaled $285,252, and increased
the contract amount to $1,511,585. ARS’ Colorado Area Office performed the procurement
activities and contract management functions, including contract award, contractor payment
approval, and monitoring of the contractor’s Recovery Act reporting. Contract monitoring was
performed by the Supervisory Mechanical Engineer, who was located at the project site in Fargo,
North Dakota. ARS’ Financial Management Division (FMD) reported the agency’s Recovery
fund statistics on Recovery.gov, through SharePoint. 2

In enacting the law, Congress emphasized the need for the Recovery Act to provide for
unprecedented levels of transparency and accountability, so that taxpayers know how, when, and
where tax dollars are being spent. To accomplish this objective, the Office of Management and
Budget (OMB) issued various implementing guidelines that require Federal agencies receiving
Recovery Act funds to post key information on Recovery.gov. In addition, agencies must submit
weekly updates, monthly financial status reports, award transaction data feeds, and an agency
Recovery Act plan to OMB and to the Recovery page of the agency’s website.

The Recovery Act also provided USDA’s Office of Inspector General (OIG) funding for
oversight and audits of USDA programs, grants, and activities funded by the Recovery Act.
1
  The Small Business Administration 8(a) Business Development Program was created to assist eligible small
disadvantaged business owners compete in the American economy through business development.
2
  SharePoint is an electronic database for USDA’s Recovery Act data collection.


                                                        1
OMB guidance states that OIGs will perform audits and inspections of their respective agencies’
processes for awarding, disbursing, and monitoring Recovery Act funds, to determine whether
safeguards exist for ensuring funds are used for their intended purposes.

To ensure that the transparency and accountability requirements of the Recovery Act are met,
USDA/OIG contracted with Regis & Associates, PC, to assist it in ensuring that ARS’ Recovery
Act procurement activities are performed in accordance with Federal Acquisition Regulations
(FAR), OMB guidance, and Recovery Act requirements. This audit was performed in
accordance with generally accepted government auditing standards, and standards established by
the American Institute of Certified Public Accountants.

During this audit, we reviewed applicable laws and regulations pertaining to procurement
activities, contract oversight, and Recovery Act reporting. We also obtained and reviewed ARS’
Colorado Area Office organizational documents relating to management controls, policies and
procedures for the procurement and contracting functions, financial management, and other
processes that would ensure compliance with the Recovery Act.

The scope of this audit included a review of the contractor’s responsibility determination;
processes for preparing and issuing the solicitation, contractor selection, contract price
determination, contract award, contract modification, contract performance monitoring, and
invoice processing and payments to determine whether ARS’ Colorado Area Office followed
departmental and agency policies and procedures, FAR, and Recovery Act requirements. We
performed procedures, as necessary, to determine whether the procurement was based on fair and
reasonable price estimates, that the contract was awarded to a contractor with appropriate
qualifications, and that processes were in place to ensure that the contractor provided
services/products in accordance with contract terms. We noted that the modifications which
totaled $285,252 were adequately reviewed and justified for Recovery Act funding purposes.
We found ARS’ Colorado Area Office’s contracting staff, including the contracting officer,
contract specialist, and contracting officer’s representative, were experienced and qualified to
award and monitor the contract.

However, we identified three issues that warrant reporting. We noted that the contracting officer
did not complete a Confidential Financial Disclosure Report 3 in a timely manner. In addition,
although ARS developed new Recovery Act recipient reporting procedures, we found an
instance of inaccurate recipient reporting and in addition noted that the contracting officer did
not request a legal review of the solicitation.4

Finding 1: Confidential Financial Disclosure Statement Not Completed Timely

ARS’ contracting officer in Fort Collins, Colorado did not complete a Confidential Financial
Disclosure Report timely, and there was no evidence indicating that he was granted a filing

3
 Office of Government Ethics Form, OGE 450.
4
 These two issues were previously reported to ARS in audit reports 02703-01-HQ and 02703-02-HQ issued
September 2010; 02703-03-HQ issued May 2011; 02703-04-HQ issued July 2011; and 02703-06-HQ issued August
2011.


                                                    2
extension. This contract was awarded on September 30, 2009, and the contracting officer should
have completed the Confidential Financial Disclosure Report by October 30, 2009. However,
the report was not completed until August 12, 2010.

To avoid involvement in a real or apparent conflict of interest, the Agriculture Acquisition
Regulation (AGAR) Advisory #85, Acquisition Workforce Training, Delegation, and
Management System, requires that, “acquisition workforce personnel must comply with existing
conflict of interest regulations/laws, and file the approved forms as required. At a minimum all
individuals whose duties involve procurement and contracting shall file a financial disclosure
statement.” The Confidential Financial Disclosure Report states that the statement is due within
30 days of assuming a position designated for filing, unless the agency requests it earlier or
grants a filing extension.

The contracting officer stated that when he was appointed to the contract, ARS’ Headquarters,
Office of Ethics, failed to communicate with him in a timely manner, regarding the filing of the
confidential financial disclosure report.

Since the financial disclosure report was not filed in a timely manner, ARS’ Office of Ethics had
no way of determining whether the contracting officer was involved in a real or apparent conflict
of interest. This could compromise the level of transparency and accountability envisioned by
the Recovery Act.

Recommendation 1

ARS needs to inform all procurement personnel to complete the required Conflict of Interest and
Financial Disclosure statements within the required timeframe, and maintain copies of these
documents.

Finding 2: Discrepancies in Prime Recipient Report

The Prime Recipient information on Recovery.gov, relating to the total amount invoiced and
received by the contractor, was not supported by the invoices in the contract file, and it also did
not agree with the information recorded in ARS’ financial system. Specifically, we noted that, as
of September 30, 2010, the contractor invoiced and was paid $1,197,192, which was reported in
ARS’ financial system. However, $1,158,628 was reported on Recovery.gov for the same
period. The amount of disbursements reported on Recovery.gov is $38,564 less than the amount
recorded in the financial system. We noted the last contractor invoice for the quarter ending
September 30, 2010 for $38,564 was not included in the amount reported on Recovery.gov, and
the contracting officer did not detect this omission during the review of contractor information.

The contracting officer did not adequately review and reconcile the information reported by the
contractor, prior to it being reported on Recovery.gov. We discussed this discrepancy with the
contracting officer and he stated it was an oversight. As a result of the condition noted above,
the accuracy of USDA’s Department-wide totals of Recovery Act financial and activity data for
the quarter could be adversely affected.


                                                 3
Inaccurate recipient information reporting had been noted in previous contract reviews, 5 resulting
in ARS issuing Policy Guidance Memorandum PGM-10-001, ARRA Recipient Data Quality
Review Guidance, to correct the condition. However, we determined the contracting officer did
not follow the guidance in communicating the reporting discrepancy to the contractor. According
to the newly issued guidance, the contracting officer is required to verify the total Federal amount
of Recovery Act funds invoiced and received by the contractor. This figure should reflect the
cumulative amount of funds that were paid out, as of the end of the reporting period, as per the
Status of Funds reports generated by ARS’ Financial Management Division.

OMB’s Initial Implementing Guidance for the Recovery Act (M-09-10), states that “…given the
high priority placed on the accurate display of information related to the Recovery Act on
Recovery.gov, agencies are responsible for a pre-dissemination review of all information that
will appear on Recovery.gov. All agencies must ensure all reporting related to Recovery Act
funding is complete and accurate and complies with the agency’s Information Quality Act
guidelines.”

Also, USDA’s Procedure for Review of the Recovery Act, Section 1512, Recipient Reported
Information, 6 requires Agencies/Departments review recipient data in order to ensure that
information reported on Recovery.gov is accurate. According to ARS’ newly released
PGM-10-001, ARRA Recipient Data Quality Review Guidance, dated March 31, 2010, Area and
Facilities Contracts Branch (FCB) Contract Specialists are required to review recipient reports,
provide formal review comments to the contractor, and follow up on review comments to ensure
that the contractor has corrected any errors identified during the review process.

Recommendation 2

ARS needs to review and reconcile contractor data prior to it being reported on Recovery.gov, in
order to ensure accuracy and consistency. Noted errors should be communicated to the
contractor in a timely manner and tracked for correction.

Finding 3: Legal Review Procedures for Contract Actions Were Not Performed

USDA’s Departmental Regulation, DR 5000-4, Legal Review of Contractual Actions, establishes
procedures for determining when to request a legal review of contractual actions. The regulation
requires the legal review of solicitations for negotiated contracts that are expected to exceed
$500,000. Also, the Internal Control Plan7 for the Research, Education, and Economics (REE)8

5
  Audit report 02703-01-HQ, and 02703-02-HQ, were both issued on September 15, 2010.
6
  The Office of the Chief Financial Officer issued the USDA’s Procedure for Review of American Recovery and
Reinvestment Act, Section 1512, Recipient Reported Information.
7
  The Internal Control Plan specifies procedures that are to be followed at each step of the procurement process,
assuring that procurement policy objectives are being met and that quality standards are being upheld.
8
  REE is the USDA mission area that provides oversight and guidance to its agencies which include ARS, the
National Institute of Food and Agriculture, the Economic Research Service, and the National Agricultural Statistics
Service.


                                                          4
Acquisition Program states that legal reviews are required for all actions identified in DR 5000-4
to ensure legal sufficiency of the solicitation and contract award documents.

The Red River Valley Agricultural Research Center’s project was a sole source, negotiated
contract, awarded at an initial contract price of $1,226,333, and DR 5000-4 states that a legal
review should have been performed. ARS’ Facilities Division did not request a legal review of
the solicitation. We noted that ARS had sent a solicitation boilerplate, which did not contain
contract specific data, to the Office of General Counsel (OGC) for review in February 2009, and
OGC did not send any review comments or recommendations. ARS concluded that a legal
review was not necessary because no review comments were received from OGC regarding the
boilerplate. However, we determined even if a legal review was done on the boilerplate
solicitation, ARS should have had a legal review of the solicitation, which contained the contract
specific data. Also, ARS should follow up with OGC if no response is received to ensure there
are no legal issues.

As a result of not performing a legal review of the solicitation, ARS could be exposed to
unintended legal consequences related to the contract. Also, ARS is not in compliance with the
Department’s regulation and its own guidance, which is designed to protect it from legal risks.

We are not making a recommendation at this time, because this issue was noted in a previous
contract review. We recommended that ARS should request and obtain a legal review of
solicitations, with project specific data, for negotiated contracts that are expected to exceed
$500,000. ARS officials agreed with our recommendation.




                                                 5
Agency’s Response




                    USDA’S


    AGRICULTURAL RESEARCH SERVICE


         RESPONSE TO AUDIT REPORT
April 23, 2012


SUBJECT:         Management’s Response to Recommendations in Audit Report 02703-0002-10 –
                 Procurement Oversight Audit of Red River Valley Agricultural Research Center
                 Contract

      TO:        Gil H. Harden
                 Assistant Inspector General for Audit
                 Office of Inspector General

                 Jon M. Holladay
                 Acting Chief Financial Officer
                 Office of the Chief Financial Officer

   FROM:         Lisa A. Baldus /s/
                 Associate Deputy Administrator
                 Administrative and Financial Management


The Agricultural Research Service (ARS) provides the following response to audit
Recommendations 1 and 2 in Audit Report 02703-0002-10 – Procurement Oversight Audit of the
Red River Valley Agricultural Research Center Contract.

Finding 1: Confidential Financial Disclosure Statement Not Completed Timely

Recommendation 1

ARS needs to inform all procurement personnel to complete the required Conflict of Interest and
Financial Disclosure statements within the required timeframe, and maintain copies of these
documents.

Agency Response

We concur and will pass this recommendation on to the Human Resources Division on/about
April 30, 2012, to include these forms in their New Employee Orientation and/or On-Boarding
Procedures.
Gil H. Harden, et. al.                                                                         2

Finding 2: Discrepancies in Prime Recipient Report

Recommendation 2

ARS needs to review and reconcile contractor data prior to it being reported on Recovery.gov, in
order to ensure accuracy and consistency. Noted errors should be communicated to the
contractor in a timely manner and tracked for correction.

Agency Response

We concur. Reminders are sent, and will continue to be sent, several times prior to the beginning
of each reporting period and again during the reporting period. The next reminder will be sent
on/about April 17, 2012.

cc:
R. Herchak, FD
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday-Friday, 9:00a.m.- 3 p.m.               ED




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual's income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA's TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
